IN THE SUPREME COURT OF THE UNITED STATES

Nos. 19-267, 19-348
Our Lady of Guadalupe School,Petitioner,
V.

Agnes Morrissey-Berru, Respondent.

St. James School,Petitioner,
V.

Darryl Biel,as personal representative of
THE estate of KRISTEN BIEL, RESPONDENT.

CERTIFICATE OF SERVICE

I, Zachary G. Parks, a member of the Bar of this Court, hereby certify
that on February 10, 2020, I caused three copies of the Brief of John D. Inazu as
Amicus Curiae in Support of Petitioners in the above-entitled case to be served by
Federal Express on the following:
Eric C. Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Ave., N.W.

Jennifer A. Lipski
JML Law, A.P.L.C.
5855 Topanga Canyon Blvd.

Suite 700

Suite 300

Washington, DC 20036
erassbach@becketlaw.org
Counsel for Petitioners

Woodland Hills, CA 91367
jennifei'@jmllaw.com
Counsel for Respondents

I further certify that all parties required to be served have been served.

Zachary><j. Parks
CoviNGTON & Burling LLP

One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202)662-6000

